                                 CLOSEOUT OF M93030012

       An allegation of intellectual th



       had submitted a proposal to NSF that contained her work. The complainant, who had
received the subject's proposal for review, alleged that the proposal contained material
contributed by the complainant during a period in which they had agreed to collaborate on a
proposal.
        OIG learned from the complainant that the subject had the original idea for the proposal,
and had proposed the collaboration. Copies of correspondence between the subject and
complainant confimed the existence of the collaboration, and detailed the dispute which led to
its dissolution. The complainant alleged that the subject unilaterally decided to end the
collaboration, and-hopedthat the complainant would pursue that part of the joint project that was
in the area of her contributions and expertise. The complainant alleges that thereafter the subject
submitted a proposal based upon the one prepared in collaboration. Moreover, despite the
division of future research suggested by the subject, the subject's proposal utilized material
related to the complainant's contributions and expertise.

        OIG examined the material sent by the complainant, and compared the drafts prepared
during the collaboration with the proposal submitted by the subject to NSF. All drafts of the
proposal had been prepared by the subject, with suggestions for revision supplied by the
complainant. The complainant could not identify specific portions that she had written or
specific ideas that she had contributed; Moreover, the subject's proposal to NSF was in many
ways different from the earlier collaborative effort.

        OIG contacted the complainant and explained that an allegation of intellectual theft must
rest on the subject's misappropriation of specific, nonpublic ideas. The complainant
acknowledged that the subject had the primary grant-writing role during the collaboration, and
that the subject could have written the proposal independently, from publicly available sources,
including a paper jointly authored by subject and complainant. According to the complainant's
explanation, the complainant contributed to the development of the proposal through extensive
discussions and comments on the drafts. However, the complainant's main contribution to the
project would have occurred after funding, when the complainant's past work and continuing
interest in this area would result in a primary p l e in theoretical and methodological design, and
other aspects of carrying out the project. TI& complainant did not think it would be possible
to provide more specific information on her uaique contributions to the proposal.

       Since OIG received no more inforqation on this matter even after another request, it
could not substantiate the allegation of misconduct. Therefore, OIG determined that there was
not enough evidence to warrant pursuing these allegations further.

       This case is closed without a finding of misconduct.
Concurrence:


                                       7h7h3             3




cc:   Deputy Assistant Inspector General for Oversight
      Assistant Inspector General for Oversight
      Lnspector General
